        EVALUATION OF THE
   DOMESTIC CHILD LABOR PROGRAM




      WAGE AND HOUR DIVISION
EMPLOYMENT STANDARDS ADMINISTRATION




             REPORT NO: 2E-04-420-0001
            DATE ISSUED: SEPTEMBER 26, 2002
                        TABLE OF CONTENTS


ACRONYMS…………………………………………………………………………...ii

EXECUTIVE SUMMARY ………………………………………………………….iii

BACKGROUND …………………………………………………………………….. 1

PURPOSE, SCOPE AND METHODOLOGY ……………………………………. 2

FINDINGS AND RECOMMENDATIONS ……………………………………….. 3

      Finding A:   WHD Has Not Updated the Non-Agricultural Child Labor
                   Hazardous Occupations Orders….………………………………3

      Finding B:   Management and Investigative Tools Used by WHD Have
                   Not Been Reviewed and Updated ……………………………...6

      Finding C:   Outreach Efforts Undertaken by WHD Have Not Been
                   Consistently Implemented……...…………….…………………11
APPENDICES

APPENDIX A -Non-Agricultural Child Labor Hazardous Occupations
            Orders……………………………………………………....……….14

APPENDIX B -Agricultural Child Labor Hazardous Occupations
            Orders……...……………………………………………..…………16

APPENDIX C -Descriptions of Youth Agricultural Exceptions by Category……19

APPENDIX D -Agency’s Response….………………………………………………21




                                     i
                   ACRONYMS



BLS      -   Bureau of Labor Statistics

CL       -   Child Labor

ESA      -   Employment Standards Administration

FLSA     -   Federal Labor Standards Act of 1938

GPRA     -   Government Performance and Results Act

HO       -   Hazardous Order

IRS      -   Internal Revenue Service

MOU      -   Memorandum of Understanding

MSPA     -   Migrant and Seasonal Agricultural Workers Protection Act

NACLHO   -   Non-Agricultural Child Labor Hazardous Occupations
             Orders

WH       -   Wage and Hour

WHD      -   Wage and Hour Division




                           ii
                            EXECUTIVE SUMMARY

We conducted an evaluation of the Wage and Hour Division’s (WHD) Domestic Child
Labor (CL) Program. This evaluation was designed to provide WH management with
information and recommended actions to further enhance the effectiveness of the
program. While we did not examine other programs administered by WHD, we believe
that many of our CL findings are applicable to other WH programs.

FINDINGS AND RECOMMENATIONS

Our evaluation identified specific areas where WHD can better execute aspects of the
Child Labor Program.

Finding A-     WHD Has Not Updated the Non-Agricultural Child Labor Hazardous
               Occupations Orders

The Non-Agricultural Child Labor Hazardous Occupations Orders (NACLHO) used by
WHD to determine the most significant child labor violations must be updated. In the
1999 ESA Strategic Plan, WHD was instructed to review NACLHO. We believe that
with the advances made in technology and in industry in the last five years, WHD has
been remiss in not reviewing the NACHLO to ensure that it is up-to-date and reflects
current industry occupations. In 2000, WHD entered into a cooperative agreement with
the Department of Health and Human Services’ National Institute For Occupational
Safety and Health (NIOSH) to review all child labor hazardous occupations orders
(HOs). In May 2002, NIOSH issued a report highlighting specific orders that should be
revised. In a July 2002 letter, the WHD Administrator acknowledged that WHD is
working to implement changes to some of HOs recommended by NIOSH. We believe
that an in-depth review is needed to ensure that appropriate industries are covered by the
HOs. We recommend that WHD do the following:

   (1) Review and update the listing of Non-Agricultural Child Labor Hazardous
       Occupations Orders to ensure it meets current safety guidelines.

   (2) Develop a periodic review and rulemaking system that will ensure youth work
       activities are consistently protected.

Finding B-     Management and Investigative Tools Used by WHD Have Not Been
               Reviewed and Updated

The management and investigative tools used by WHD to identify and substantiate child
labor law compliance have not been reviewed and updated. We believe that WHD has
been proactive in providing support to field staff regarding technical issues, however,
WHD has not comprehensively assessed which innovative local initiatives and
investigative tools are best suited to fulfill its mission.




                                            iii
It is essential for WHD to provide better worker protection by coordinating strong
enforcement efforts with compliance assistance to help employers comply with the
myriad of Federal labor laws.

We recommended WHD do the following:

   (3) Conduct a best practices evaluation of each regional and district office’s child
       labor initiatives to assess their effectiveness.

   (4) Evaluate all regional and district offices’ inventories to identify all requisite
       equipment necessary for WHD to carry out its mission and program goals.

   (5) Pursue developing formal relationships with public and private data collection
       agencies (such as IRS and Dunn & Bradstreet) to gain access to employer data for
       WHD mission related actions.

Finding C-     Outreach Efforts Undertaken by WHD Have Not Been Consistently
               Implemented

WHD has not been consistent in the development and execution of outreach programs
and beneficial relationships with Federal, state and local employment issuance and
regulatory agencies. We found that WHD has not consistently worked with state and
local agencies that are responsible for issuing youth employment certifications. A closer
relationship with these agencies may reduce the number of illegally employed youth.
Additionally, when WHD has entered into relationships through Memorandums of
Understanding (MOUs) with other Federal, state and local regulatory agencies, the result
has sometimes produced a limited mission-enhancing relationship for WHD.
We recommend that WHD do the following:

   (6) Establish and maintain formal relationships with states’ and territories’
       employment certification issuing agencies to ensure youth and employers have
       clear information on both Federal and state Child Labor laws and requirements.

   (7) Develop formal and informal relationships with Federal, state and local regulatory
       agencies that augment and enhance WH mission-related goals.

 AGENCY RESPONSE AND OIG CONCLUSION

In response to OIG’s official draft report, WHD generally agreed with our findings and
recommendations. As a result of corrective actions planned or already taken, we consider
all seven recommendations to be resolved. Further, we consider recommendation 7 to be
closed. The remaining recommendations will be closed pending OIG’s receipt of
appropriate documentation of corrective actions as specified in the report. In addition,
WHD provided a few technical corrections/suggestions to enhance the accuracy of the
report. These adjustments are incorporated in the final report. The Agency’s complete
response is found in Appendix D.



                                              iv
                                   BACKGROUND

The Wage and Hour Division (WHD) is responsible for protecting 130 million workers by
ensuring compliance with labor standards in more than 7 million workplaces. WHD achieves
compliance with labor standards through its enforcement program, as well as promoting
voluntary compliance through education. The Wage and Hour Division was created with the
enactment of the Fair Labor Standards Act (FLSA) of 1938. The Division is part of the
Employment Standards Administration (ESA) in the Department of Labor (DOL).

In addition to enforcing Federal minimum wage, overtime pay, recordkeeping, and child
labor requirements of FLSA, the WHD also enforces the Migrant and Seasonal Agricultural
Worker Protection Act (MSPA), the Employee Polygraph Protection Act, the Family and
Medical Leave Act, wage garnishment provisions of the Consumer Credit Protection Act,
and a number of employment standards and worker protections as provided in several
immigration related statutes. Additionally, WHD administers and enforces the prevailing
wage requirements of the Davis Bacon Act and the Service Contract Act, as well as other
statutes applicable to federal contracts for construction and for the provision of goods and
services.

Domestic Child Labor policies are divided into two industrial areas, non-agricultural and
agricultural. More inspections are initiated in the non-agricultural sector (i.e. grocery stores,
quick service restaurants, full service restaurants and construction) than in the agricultural
sector.

The child labor standards contained in the FLSA are designed to protect the educational
opportunities of youth and prohibit employment that could be life threatening or detrimental
to their health. These standards place restrictions on work hours for youth under 16 and
provide a prohibition on specific agricultural and non-agricultural hazardous occupations that
are too dangerous for youth to perform. Many States also have laws that protect child
laborers. WHD often coordinates with states to expand child labor investigative actions.
This coordination has led to Federal and state child labor regulatory agencies working jointly
on cases where Federal and state child labor standards overlap; this coordination is not
limited to compliance education.

WHD administers the Domestic Child Labor Program through its National Executive
Leadership Team, 5 Regional Offices, and 55 District Offices. The WHD National
Executive Leadership Team, comprised of high-level WHD headquarters and regional
officials, interprets and develops the educational outreach policies and specific industry
enforcement initiatives. Each District Office is responsible for implementing national
policies, initiatives and compliance education, conducting independent complaint
investigations, and developing specific local initiatives. WH officials stated that 70 percent
of WH investigative work is complaint driven, while 30 percent is the result of locally
targeted compliance actions and enforcement activities.

The Wage and Hour mission is to promote and achieve compliance with labor standards that
protect and enhance the welfare of the Nation’s workforce. Ensuring that adequate emphasis
continues to be placed on compliance with child labor standards is the challenge faced by
WHD, as additional enforcement responsibilities have been undertaken by the agency over
the years.

                                                1
            PURPOSE, SCOPE AND METHODOLOGY


PURPOSE

The purpose of this evaluation was to review certain practices, policies and procedures of
WHD’s Domestic Child Labor (CL) Program and provide WH management with information
and recommended actions to further enhance the effectiveness of the program. While we did
not examine other programs administered by WHD, we believe that many of our CL findings
are applicable to other WH programs.

SCOPE

We evaluated the enforcement and educational outreach efforts of WHD in agricultural and
non-agricultural industries. This review focused on the following:

   •   Industries where CL violations were most likely to occur
   •   Compliance review procedures
   •   Formal and informal relationships with other federal, state and local agencies
   •   Educational/outreach programs and innovations

METHODOLOGY

We utilized both qualitative and quantitative analytical methods to evaluate the Child Labor
program.

Qualitative Methods

We conducted site visits to all 5 regional offices and 14 district/area offices to compare the
similarities and differences among various offices nationwide. We interviewed Regional
Administrators and their Deputies, District Directors and Assistant District Directors, as well
as WH field investigators. We reviewed case files from each district office that illustrated
the variety of outcomes ranging from violations where no civil monetary penalty was
assessed, to cases where substantial penalties were assessed.

Quantitative Methods

We analyzed civil monetary penalties, CL injuries and fatalities, compliance actions in
various industries, and time spent by investigators in enforcement and public outreach. Our
goal through these analyses was to identify trends and to determine the effectiveness of CL
compliance reviews conducted by WHD.

This review was conducted according to the Quality Standards for Inspections published by
the President’s Council on Integrity and Efficiency.




                                               2
                    FINDINGS AND RECOMMENDATIONS

FINDING A: WHD Has Not Updated the Non-Agricultural Child
           Labor Hazardous Occupations Orders

The Non-Agricultural Child Labor Hazardous Occupations Orders (NACLHO) used by
WHD to determine the most significant child labor violations must be updated. In the 1999
ESA Strategic Plan, WHD was instructed to review NACLHO. We believe that with the
advances made in technology and in industry in the last five years, WHD has been remiss in
not reviewing the NACHLO to ensure that it is up-to-date and reflects current industry
occupations. In 2000, WHD entered into a cooperative agreement with the Department of
Health and Human Services’ National Institute For Occupational Safety and Health (NIOSH)
to review all child labor hazardous occupations orders (HOs). In May 2002, NIOSH issued a
report highlighting specific orders that should be revised. In a July 2002 letter, the WHD
Administrator acknowledged that WHD is working to implement changes to some of HOs
recommended by NIOSH. We believe that a further in-depth review is needed to ensure that
appropriate industries are covered by the HOs.

1.      Criteria for Determining Hazardous Occupations Orders

For regulatory purposes, HOs under FLSA are broken down by agricultural and non-
agricultural occupations. Under the FLSA, youth must be 18 years old to work in any non-
agricultural occupation that the Secretary of Labor finds and orders to be particularly
hazardous or detrimental to a youth’s health. This minimum age requirement also applies to
youth employed by parents or guardians. See Appendix A for the complete listing of
NACLHO. The criteria used by WHD to determine whether a child is employed in a
hazardous non-agricultural occupation have not been updated in more than 60 years.
However, as a result of extensive discussions with agricultural industry officials, WHD did
revise the Agricultural Child Labor Hazardous Occupations Orders (ACLHO)1 in 1971.

2.      Results of the NIOSH Recommendations to the U.S. Department of Labor for
        Changes to Hazardous Orders

The May 2002 NIOSH review of the Child Labor Hazardous Occupations Orders highlighted
specific changes that should be made to the existing HOs. NIOSH proposed several types of
revisions to the HOs: 1) Prohibited actions must be defined better, 2) Associated legislative
provisions must be incorporated into the HOs, 3) Some HOs should be expanded to included
associated work, and, 4) In some cases, current exemptions should be removed from certain
HOs. Additionally, NIOSH recommended the development of several new HOs to protect
youth from hazardous work not adequately addressed in the existing regulations.

1
  The Secretary of Labor has designated occupations where youth under the age of 16 may not be employed at
any time. However, exceptions to these hazardous occupations have been applied to youth under 16 years old
that are employed by a parent or guardian on a family owned or operated farm. Additionally, certain exceptions
exist under regulated conditions for youth who are 14 and 15 years old who are in the following categories:
Student-Learners, 4-H Extension Service Training Program, and the Vocational Agricultural Training Program.
See Appendices B and C for a complete listing of the Agricultural Child Labor Hazardous Occupations and
Descriptions of Youth Agricultural Exceptions by Category.

                                                      3
NIOSH based these proposed HOs on work associated with deaths and severe injuries of
youth, work with high fatality rates, and work associated with disabling health conditions. It
should be noted that recommended changes in the NIOSH report are limited to areas where
WHD has regulatory authority. Additionally, NIOSH emphasized that any proposed revision
or addition should be coupled with appropriate public awareness efforts.

RECOMMENDATIONS

Upon a review of the NIOSH report, WHD stated that they are working to implement some
of the recommended changes to the Hazardous Orders. However, incorporation of these
recommendations is only a preliminary step. The development of a periodic review and
rulemaking mechanism to ensure that youth work activities are consistently protected as new
industries and occupations are evolving should be implemented.

We recommend that WHD:

   (1) Update the listing of Non-Agricultural Child Labor Hazardous Occupations Orders to
       ensure it meets current safety guidelines. WHD should review all new and updated
       hazardous equipment reviews conducted by the Occupational Safety and Health
       Administration, the Department of Health and Human Services, and National
       Institutes of Occupational Safety and Health, to ensure that industry regulations are
       considered. Furthermore, WHD should provide OIG with a written response 120
       days after the final issuance of this evaluation, specifying which specific NIOSH
       recommendations will be added to the Hazardous Orders.

   (2) Develop a periodic review and rulemaking system that will ensure youth work
       activities are consistently protected.

WHD’s Response to Recommendation 1

“…WHD commissioned the recently issued report from the National Institute for
Occupational Safety and Health (NIOSH) for a comprehensive compilation of the data on
youth workplace fatalities and injuries. This data will provide the foundation for the
agency’s deliberations on subsequent regulatory action, additional research, compliance
assistance or other compliance strategies. The report includes data from a range of sources
including OSHA’s Survey of Occupational Injuries and Illnesses. For this reason, we do
believe additional review of OSHA data is useful at this time. …WHD is already working to
implement some of the changes to the Hazardous Orders (HOs) recommended by the Report.
WHD will update the ban found in HO 1 against minors working with explosive materials.
WHD is working to publish a final rule amending HO 2 to implement the Teen Drive for
Employment Act and HO 12 to implement the Compactors and Balers Safety Standards
Modernization Act. WHD has also proposed revisions to HO 16, regarding work on roofs,
as recommended by NIOSH.”

“In the coming months, WHD will be conducting stakeholder meetings seeking comments for
State labor agencies, employers, unions, researchers and child advocacy groups regarding
the NIOSH recommendations. These comments will assist WHD in developing a regulatory
plan to update the HOs. It is important to note, however, that all NIOSH recommendations
may not be appropriate for regulatory action. Moreover, the deliberative nature of
rulemaking requires consideration of a number of factors and cannot be undertaken based
                                              4
solely on the recommendations of a single entity. Under these circumstances, WHD and the
Department may not be in a position to fully evaluate the recommendation and determine an
appropriate course of action within 120 days of issuance of your final report. However,
WHD will, at that time, provide notice of any proposed regulatory activities related to
specific NIOSH recommendations if such proposals have been reviewed and cleared within
the Department.”

OIG’s Conclusion

We consider recommendation 1 to be resolved. WHD’s proposed corrective actions
adequately address the need to change current safety guidelines within the Non-Agricultural
Child Labor Hazardous Occupations Orders. This recommendation will be closed, pending
receipt by this office of status reports/updates of proposed regulatory activities related to
specific NIOSH recommendations that have been reviewed and cleared within the
Department. These updates should be provided by January 17, 2003 and July 18, 2003.

WHD’s Response to Recommendation 2

“Occupational restrictions for youth employment must be based on a thorough analysis of
the available scientific data and an evaluation of other economic and social factors. The
analysis of research data and review of relevant scientific literature requires expertise in
scientific and statistical methodology not currently available to WHD. Depending on the
status of the agency’s responses to the NIOSH recommendations, WHD will request
additional funding in either fiscal year 2005 or 2006 to establish a comprehensive periodic
- and objective - evaluation of data on youth employment and injuries, and other pertinent
occupational and industry information. If the Department is successful in obtaining
additional funding, the resulting analysis will be considered in relation to other factors in
determining the most effective approach, including rulemaking, for ensuring that youth
workers are safely employed.”

OIG’s Conclusion

While we consider this recommendation to be resolved, we feel that there are actions that
WHD can take prior to addressing specific scientific and statistical resource needs. We will
take steps to close this recommendation pending receipt by this office of status
reports/updates of planned changes to the Hazardous Occupations Orders, as well as the
status of actions to develop a periodic review and rulemaking system. These updates should
be provided by January 17, 2003 and July 18, 2003.




                                               5
FINDING B: Management and Investigative Tools Used by WHD Have
           Not Been Reviewed and Updated

The management and investigative tools used by WHD to identify and substantiate child
labor law compliance have not been reviewed and updated. We believe that WHD has been
proactive in providing support to field staff regarding technical issues, however, WHD has
not comprehensively assessed which innovative local initiatives and investigative tools are
best suited to fulfill its mission.

One of the Secretary’s top goals is to better protect workers by coordinating strong
enforcement efforts with compliance assistance efforts to help employers comply with the
myriad of labor laws. Since the number of workplaces in the country far exceed Wage and
Hour investigator resources to inspect all of them, any methods WHD can utilize to improve
investigation of child labor violations and facilitate employer compliance with child labor
standards should be pursued.

1.      Examining Best Practices of Individual District Offices

WHD conducts two types of Child Labor investigations. They are 1) individual complaints and
2) targeted investigations - this includes compliance and recidivism reviews. Between FY 1995
and 2000, WHD closed 10,852 child labor cases2 - see Figure 1 below.

Figure 1.
                  Number of WHD Investigated Cases in which Child Violations were Disclosed
                                               FY 1995-2000

                                                                            3117
         1651             1820                                                                 1810
                                          1141             1237



       FY 1995          FY 1996          FY 1997          FY 1998          FY 1999            FY 2000


In addition, we compared WHD’s data to the number of occupational, non-fatal child labor
accidents reported by the Bureau of Labor Statistics (BLS). We found that BLS reported
44, 844 youth injuries during this same period3 - see Figure 2 below.




2
 The high number of closed investigations for FY 1999 is a result of Wage and Hour transferring information
between data storage systems. This data transfer resulted in FY 1998 closed cases being included in FY 1999
case information.
3
  Employers and state labor regulatory agencies provide BLS with the Non-Fatal Child Labor accident data on a
voluntary basis. This data is protected under a pledge of confidentiality. The names of employers are not
provided to DOL enforcement agencies. Additionally, it should be noted that BLS data is incongruent with
WHD enforcement data in three areas. 1) BLS data sometime includes 18 and 19 year olds. The FLSA child
labor provisions do not regulate youth employment in this age group. 2) BLS accident data reports incidents in
establishments that are not covered under FLSA. 3) BLS data reports accidents that do not necessarily correlate
to youth who are illegally employed.
                                                      6
Figure 2.
                    Number of Occupational Child Labor Non-Fatal Injuries
                              Reported to BLS (FY 1995-1999)

        14424
                          9767                                                8753
                                            6270              5630



       FY 1995           FY 1996          FY 1997           FY 1998          FY 1999

WH officials advised us that several offices were implementing proactive and innovative
programs that have resulted in reducing child labor violations. We visited several suggested
offices and found this information to be correct. For example, the WH district office in
Springfield, Illinois has developed a program that allows employers to self-assess for child
labor compliance. Other offices we visited, such as Chicago, Sacramento, San Antonio, and
San Diego, also had innovative programs that facilitated high levels of compliance. If a best
practices study was conducted of the results that these local initiatives have had, a number of
these approaches could be integrated into WH’s national agenda. Additionally, we believe
that implementing a review of agency best practices augments the spirit of the Secretary’s
statement to the National Federation of Independent Business on June 14, 2002. She stated,
“The idea that government ought to provide business with the knowledge and tools to help
people comply with its regulations…should be a top priority of the Department of
Labor…whose time has come.” These best practices are efforts by WH offices to provide
employers with innovative tools that educate and enforce DOL labor regulations.

2.     Necessary Investigative Equipment

During the course of our evaluation, we discovered two areas where WH field staff expressed
concern that they did not have the appropriate tools to effectively conduct, document and
substantiate child labor violations. First, we visited several offices that did not have
sufficient recording equipment to effectively document and substantiate child labor
violations. For example, while interviewing personnel in several offices, both directors and
investigators reported that they have had to use their own personal video equipment and
cameras to document child labor violations. The District office had not acquired the
appropriate equipment for use by the staff. It was further noted that in agricultural areas,
investigators frequently need equipment that can document activities from much greater
distances. Investigators stated that there were times when they were precluded from
effectively recording certain observed instances of apparent child labor violations because
the office’s equipment was not capable of recording from long distances. During subsequent
meetings with WH management, we were informed that regional and district offices were
responsible for equipping staff with all requisite inspection tools.

Secondly, several WH regional and district offices reported to us that they did not have
access to the same targeting data as WH headquarters. The use of Dunn & Bradstreet
merchant data (via the University of Tennessee) to randomly select firms for investigations is
a key component in WH headquarters’ methodology for targeting supermarkets and the quick
service and full service restaurant industries. WH field management informed us that they
used either WH staff experience or such resources as the public telephone book to select
employers for local enforcement initiatives. Notwithstanding the fact that the WHD National
                                               7
Leadership Executive Team asserts that WH field management has access to Dunn &
Bradstreet data, we believe that WH field management has not been properly advised on the
availability of Dunn & Bradstreet data. In addition to the Dunn & Bradstreet data, WH field
management and staff noted that Internal Revenue Service (IRS) has developed a database
that stores employer information. WH field staff thought that access to this data would be
helpful for them to target more effectively. We discussed with the Department of Treasury,
Office of Inspector General for Tax Administration how WHD might obtain this information.
We were told that WHD may only request non-sensitive data (i.e. employer name and
address), because 26 U.S.C.§61034 precludes IRS from sharing specific taxpayer
information. We contend that even non-sensitive information may be helpful in WH’s
development of an employer information database.

RECOMMENDATIONS

After meeting with members of the WHD National Leadership Executive Team, we
concluded that: 1) WH offices should decide which tools are needed in their respective
locations, however, WH management should provide guidance regarding the minimal
equipment essential to achieve its mission and 2) WH regional and district offices should
have access to the same targeting data as WH headquarters. WH management can resolve
these issues in three steps. First, WHD should survey and evaluate existing inventories and
reach a consensus on those basic tools and related training needed by staff to effectively
document and substantiate child labor violations, as well as provide management with real-
time reports of imminent danger. Secondly, WH headquarters should inform district offices
of all available targeting data resources. Finally, WHD should develop formal relationships
with public and private data collection agencies (such as IRS and Dunn & Bradstreet) to gain
access to employer data for WH mission related actions.

We recommend that WHD:

    (3) Conduct a best practices evaluation of each regional and district office’s child labor
        initiatives to assess their effectiveness. This analysis will assist WHD in identifying
        whether their enforcement and outreach actions are effectively reaching employers.
        Additionally, several best practices may be applied nationally and/or to other WH
        regions.

    (4) Evaluate all regional and district offices’ inventories to identify all requisite
        equipment necessary for WHD to carry out its mission and program goals. Once this
        inventory assessment is completed, offices should maintain the minimum level of
        equipment and related appropriate training for staff.

    (5) Pursue developing a formal relationship with public and private data collection
        agencies (such as IRS and Dunn & Bradstreet) to gain access to employer data for
        WH mission related actions.




4
 The complete legal citation of this code is 26 U.S.C. § 6103, Subpart F, Chapter 61, Subchapter B, Section
6103.
                                                      8
WHD’s Response to Recommendation 3

“We are pleased that the draft report notes the innovative and proactive programs of
respective regional and district offices and agree that those with a positive impact on child
labor compliance should be shared throughout the organization. WHD’s fiscal year 2003
Annual Performance Plan challenges the agency to ‘maintain or increase child labor
compliance, with a focus on industries with the highest youth employment and the greatest
risk of serious injury.’ Under the plan, each Region and District Office will develop locally
targeted initiatives in the grocery store, full-service restaurant, and quick-service restaurant
industries. The agency’s regional administrators will be directed to provide the status and
results of the various child labor initiatives - including a detailed analysis and
recommendation of effectiveness - on a quarterly basis throughout the upcoming fiscal year.
These reports will be provided to the WHD’s Executive Leadership Team and the agency’s
national child labor initiative team and used to develop goals, evaluate strategies and
recommend expanding initiatives for the agency’s fiscal year 2004 performance plan.
Through this process, we believe we can most effectively evaluate, share and replicate ‘best
practices’ in the child labor program.”

OIG’s Conclusion

We consider this recommendation to be resolved. It will be closed upon receipt by this office
of a copy of the agency’s Fiscal Year 2004 performance plan, highlighting which local and
regional initiatives were incorporated into national WH policies. This plan should be
provided no later than July 18, 2003.

WHD’s Response to Recommendation 4

“WHD recognizes that various investigative situations may require tools not traditionally
used during the normal course of an investigation. WHD is willing to accommodate those
requirements as needed and resources permit. Regional and district offices currently have
the responsibility and means (through their discretionary budget funds) to properly equip
investigators to perform the job. The WHD Executive Leadership Team will evaluate the
agency’s tools and equipment needs at an upcoming meeting of the Leadership Team.”

OIG’s Conclusion

We consider recommendation 4 to be resolved. It will be closed upon receipt of the results of
WHD’s evaluation of the minimum level of investigative equipment required by WH staff.
The information should be submitted to this office by January 17, 2003.

WHD’s Response to Recommendation 5

“WHD is in the process of renewing its contract with the University of Tennessee, which
employs the Dunn & Bradstreet data for statistical employer sampling. To the extent that
district offices are unaware of the availability of the resource, WHD will remind all offices of
this resource and procedures for utilizing it once the contract is finalized.”

“With respect to the data for the Internal Revenue Service (IRS), WHD understands that the
IRS will not release associated industry codes for employers. Since the agency’s targeted
                                               9
enforcement program is oriented towards low-wage industries - and for child labor,
industries that employ large numbers of young workers and industries in which young
workers may be injured - the IRS database would not be of use to WHD in selecting
employers for investigation. If IRS were willing to provide a database of employers by
industry, WHD would agree that the data would be useful and seek access to it. If, in future,
however, WHD has need of a large employer database for direct mailings or other direct
access to employers that is not industry specific, we will certainly take into account the
availability of the IRS information. For this reason, we appreciate the recommendation.”

OIG’s Conclusion

We consider this recommendation to be resolved. It will be closed pending receipt by this
office of the following information:

   •   Please provide a copy of WHD’s memorandum to district offices regarding Dunn &
       Bradstreet data by January 17, 2003.

   •   To resolve the issue of what data/information IRS can share with WHD for mission
       related activities, please provide a copy of both the formal request and IRS’ response
       regarding WHD’s employer data requirements. This information should be provided
       by July 18, 2003.




                                             10
FINDING C: Outreach Efforts Undertaken by WHD Have Not Been
           Consistently Implemented

WHD has not been consistent in the development and execution of outreach programs and
beneficial relationships with Federal, state and local employment issuance and regulatory
agencies. We found that WHD has not consistently worked with state and local agencies that
are responsible for issuing youth employment certifications. A closer relationship with these
agencies may reduce the number of illegally employed youth. Additionally, when WHD has
entered into relationships through Memorandums of Understanding (MOUs) with other
Federal, state and local regulatory agencies, the result has sometimes produced a limited
mission-enhancing relationship for WHD.

1.     Issuance of Employment Certifications

While reviewing state and territorial policies associated with the issuance of employment
certifications to youth that are eligible to work, we identified differences in the process of
certification issuance. The following table describes each of the issuance processes:

Table 1: Employment Certificate Issuance by State and Territory

                                                                             Number of
              Employment Certificate Issuing Entities                        States and
                                                                             Territories
Employment Certifications issued by State Labor Departments                      14
Employment Certifications issued by Schools Districts                            25
Employment Certifications issued by State Labor Departments
                                                                                  4
and School Districts
States/Territories with no issuance of Employment Certifications                  11

During our review, we found that 7 of the 19 offices we visited consulted with the specified
issuing agency concerning basic procedures used to identify illegal youth employment.
Since each state and territory has a prescribed procedure for certification issuance, WH
policies should reflect these procedures in order to facilitate working relationships with the
issuing agency. These relationships, if properly developed and implemented, would create a
primary contact for youth and employers who may be unaware of Federal, state and local CL
laws. They would also allow for the development of clearly stated information on Federal
and state CL laws and requirements.

2.     Development of Memorandums of Understanding

WHD Field Operations Handbook, §52g10 and §52g11, provides regional and district offices
with guidelines for building effective relationships with state and local agencies assisting
with the core mission of the agency. WH management has made it standard practice that
MOUs should augment and enhance child labor compliance. During our evaluation, WHD
provided a list of 46 established agreements with 28 states and territories highlighting their
joint efforts. We determined that 63% of these agreements were mutually beneficial, while
the remaining 37% were limited. This determination was made based on our review of the
scope of each agreement. It should be noted that the limited agreements confined

                                               11
enforcement efforts to specific investigations and inquires. WHD should consider pursuing
relationships with State and local regulatory agencies that encompass all aspects of WH
mission related requirements.

A specific example of a narrowly scoped agricultural MOU is the 1986 agreement with the
Pennsylvania Department of Labor and Industry. This agreement permits the coordination
of investigations of farm labor contractors. Activities include conducting joint education
programs and seminars explaining the State Labor Farm Act and MSPA to farmers and farm
workers; providing cross training to investigative personnel; and, meeting occasionally to
discuss mutual problems, statutory changes and other concerns.

We found this agreement exclusively served WH compliance needs for MSPA. However,
we believe the agency should consider whether this agreement could be expanded to
accommodate other core WH needs.

We also determined through interviews with WH officials that many MOUs were developed
by district level management and were based on working arrangements between specific
district management personnel and state and/or local labor regulatory agency management
officials. As a result, many of these agreements became obsolete once the management
official of either entity changed.

3.      Compliance Assistance Efforts

Our review did confirm that WHD has taken steps to provide compliance assistance for
employers, teens, parents and educators. In particular, the FLSA child labor provisions have
been linked to the DOL website under the section Major Laws and Regulations Enforced by
the Department of Labor, and on DOL’s YouthRules! website. Further, WHD has produced
such informational items as posters, handouts, bookmarks, etc. All of these efforts are
consistent with the Secretary of Labor’s desire for agencies to increase compliance assistance
to the public.

RECOMMENDATIONS

The Secretary of Labor also continues to encourage DOL agencies to form mutually
advantageous joint ventures because workers are better protected when employers,
employees and government work together. WHD should continue to encourage the
establishment of these agreements that enhance the mission of the agency, consistent with the
new Departmental rules governing MOUs.

We recommend that WHD:

     (6) Establish and maintain formal relationships with states’ and territories’ employment
         certification issuing agencies to ensure youth and employers have clear information
         on both Federal and state Child Labor laws and requirements.

     (7) Develop formal and informal relationships with Federal, state and local regulatory
         agencies that augment and enhance WH mission-related goals. These relationships
         should include but not be limited to: a) cross-training of staff concerning child labor
         compliance activities; b) development of clear guidelines for joint enforcement

                                                12
       activities; c) information sharing; d) roundtable discussions of effective outreach
       strategies; e) relationship sunset dates; and f) initiative effectiveness evaluations.

WHD’s Response to Recommendation 6

“All WHD district offices will soon be reaching out to their State’s work permit and issuing
officers or school principals informing them of the Department’s new public awareness
campaign and website, entitled YouthRules!. As part of this outreach, WHD district offices
will offer to work with the permit-issuing official to ensure that employers and others have
knowledge of the Federal child labor requirements.”

OIG’s Conclusion

We consider recommendation 6 to be resolved. It will be closed upon receipt by this office
of a listing of appropriate state employment certification issuing officials who were
contacted. A copy of this listing should be provided by January 17, 2003.

WHD’s Response to Recommendation 7

“In August 2002, WHD met with representatives from the Interstate Labor Standards
Association (ILSA), an association of State labor officials, to revitalize past efforts to
improve cooperative state and federal efforts towards ensuring safe and appropriate work
experiences for young workers. WHD has likewise invited the National Association of
Government Labor Officials, OSHA and NIOSH to participate in this joint federal-state
partnership. Through this effort, we will encourage continued coordination and
communication between WHD field offices and the respective state labor officials, including
the specific elements noted in your recommendation.”

OIG’s Conclusion

We concur with the corrective actions taken by WHD and consider this recommendation to
be both resolved and closed.




                                               13
       APPENDIX A

Non-Agricultural Child Labor
Hazardous Occupations Orders




              14
          Non-Agricultural Child Labor Hazardous Occupations Orders
    1.     Manufacturing and storing explosives.

    2.     Motor-vehicle driving and outside helper on a motor vehicle.

    3.     Coal mining.

    4.     Logging and sawmilling.

    5.     Power-driven wood-working machines. *

    6.     Exposure to radioactive substances.

    7.     Power-driven hoisting apparatus, including forklifts.

    8.     Power-driven metal-forming, punching and shearing machines. *

    9.     Mining, other than coal mining.

    10.    Operating power-driven meat processing equipment, including meat slicers and other
           food slicers, in retail establishments (such as grocery stores, restaurants, kitchens and
           delis), wholesale establishments, and most occupations in meat slaughtering, packing,
           processing, or rendering. *

    11.    Power-driven bakery machines including vertical dough or batter mixers.

    12.    Power-driven paper-product machines including scrap paper balers and cardboard box
           compactors. *

    13.    Manufacturing bricks, tile, and kindred products.

    14.    Power-driven circular saws, bandsaws, and guillotine shears.

    15.    Wrecking, demolition, and shipbreaking operation.

    16.    Roofing Operations. *
                                    ∗
    17.    Excavation Operations.




∗
  These HOs provide limited exemptions for 16 and 17 year olds who are bona-fide student
learners and apprentices. All of these Occupations are listed in Subpart E of Part 570 of Title
29 of the Code of Federal Regulations.
                                             15
       APPENDIX B

  Agricultural Child Labor
Hazardous Occupations Orders




              16
     Agricultural Child Labor Hazardous Occupations Orders
1.   Operating a tractor of over 20 PTO horsepower, or connecting or disconnecting an
     implement or any of its parts to or from such a tractor.

2.   Operating or assisting to operate (including starting, stopping, adjusting, feeding or any
     other activity involving physical contact associated with the operation) any of the
     following machines:

       a. Corn picker, cotton picker, grain combine, bay mower, forge harvester, hay baler,
          potato digger, or mobile pea viner;

       b. Feed grinder, crop dryer, forage blower, auger conveyor, or the unloading
          mechanism of a nongravity-type self-loading wagon or trailer; or

       c. Power post-hole digger, power post driver, or nonwalking type rotary tiller.

3.   Operating or assisting to operate (including starting, stopping, adjusting, feeding, or any
     other activity involving physical contact associated with the operation) any of the
     following machines:

       a. Trencher or earthmoving equipment;

       b. Fork lift;

       c. Potato combine; or

       d. Power-driven circular, band, or chain saw.

4.   Working on a farm in a yard, pen or stall occupied by a:

       a. Bull, boar, or stud horse maintained for breeding purposes; or

       b. Sow with suckling pigs, or cow with newborn calf (with umbilical cord present).

5.   Felling, bucking, skidding, loading or unloading timber with butt diameter of more than
     6 inches.

6.   Working from a ladder or scaffold (painting, repairing or building structures, pruning
     trees, picking fruit, etc.) at a height of over 20 feet.

7.   Driving a bus, truck, or automobile when transporting passengers, or riding on a tractor
     as a passenger or helper.



                           CONTINUED ON NEXT PAGE




                                              17
       Agricultural Child Labor Hazardous Occupations Orders
                             (continued)
8.    Working inside:

        a. A fruit, forage, or gain storage designed to retain an oxygen deficient or toxic
           atmosphere;

        b. An upright silo within 2 weeks after silage has been added or when a top
           unloading device is in operating position;

        c. A manure pit; or

        d. A horizontal silo while operating a tractor for packing purposes.

9.    Handling or applying (including cleaning or decontaminating equipment, disposal or
      return of empty containers, or serving as a flagman for aircraft applying) agricultural
      chemicals classified under the Federal Insecticide, Fungicide and Rodenticide Act (as
      amended by Federal Environmental Pesticide Control Act of 1972, 7 U.S.C. 136 et
      seq.) as Toxicity Category I, identified by the word “Danger” and/or “Poison” with
      skull and crossbones; or Toxicity Category II, identified by the word “Warning” on the
      label;

10.   Handling or using a blasting agent, including but not limited to, dynamite, black
      powder, sensitized ammonium nitrate, blasting caps and primer cord; or

11.   Transporting, transferring or applying anhydrous ammonia.




                                 [Intentionally left blank]




                                              18
      APPENDIX C

  Descriptions of Youth
Agricultural Exceptions by
        Category




             19
        Descriptions of Youth Agricultural Exceptions by Category

Student-Learners

Student-learners in a bona-fide, vocational agricultural program may work in the
occupations listed in items 1 through 6 of the hazardous occupations order. For student-
learners a work agreement must exist that states the following conditions:

   •   Work is incidental to training, intermittent, or for short periods of time;
   •   Work is under close supervision of a qualified person;
   •   Safety instructions are given by the school and correlate with on-the-job training;
   •   And a schedule of organized and progressive work processes has been prepared.

Additionally, the written agreement must contain the name of the student-learner, and be
signed by the employer and the school authority; each specified individual must keep
copies of the agreement.

4-H Extension Service Training Program

Minors 14 and 15 years old who hold certificates of completion of either the tractor
operation or machine operation program may work in the occupations for which they
have been trained. Occupations for which they have valid certificates are covered by
items 1 and 2 of the hazardous occupations order. Farmers employing minors who have
completed this program must keep a copy of the certificates on file with the minor’s
records.

Vocational Agricultural Training Program

Minors 14 and 15 years old who hold certificates for either tractor operation or machine
operation program of the U.S. Office of Education Vocational Agricultural Training
Program may work in the occupations for which they have been trained. Occupations for
which these certificates are valid are covered by items 1 and 2 of the hazardous
occupations order. Farmers employing minors who have completed this program must
keep a copy of the certificate on file with the minor’s records. Information on this
program is available from vocational agricultural teachers.

WHD revised the following listing of agricultural HOs in 1971. This listing may not
reflect changes in policies or reorganizations of Federal and/or State agencies that are
equally responsible for local implementation of these HOs. See Appendix 2 for a
complete listing of Agricultural Child Labor Hazardous Occupations.




                                              20
  APPENDIX D

Agency’s Response




        21
